                                                                                           - - - - -_ . --- -- - - ,




                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC 20240

                                                                      JAN 1 8 2008


The Honorable George Miller
Chairman, Committee on Education and Labor
House of Representatives
2205 Rayburn House Office Building .
Washington, D.C. 20515

The Honorable Nick J. Rahall II
Chairman, Committee on Natural Resources
House of Representatives
2307 Rayburn House Office Building
Washington, D.C. 20515

Dear Chairman Miller and Chainnan Rahall:

         I share your concerns about the safety and well being of children attending
residential treatment programs on federal lands, as detailed in your October 11,2007
letter, and appreciate the gravity of these concerns. To identify both the scope of the
problem and the safeguards needed to ensure the appropriate use of U.S. Department of
the Interior (001) lands, my staff evaluated the areas requested in your letter as
expeditiously as possible. In addition, we made two recOmmendations to the Secretary of
the Interior to improve identification and oversight of residential treatment programs
using 001 lands.

        Specifically, you requested that we evaluate (1) the extent to which residential
treatment programs operate on federal land overseen by 001; (2) the permitting,
licensing, and leasing processes governing land use and the extent to which these
programs have complied with these processes; and (3) the role 001 has played in
investigating and preventing child abuse and neglect on federal land.

Treatment Programs on DOl Land

         Residential treatment programs can operate on 001 lands through entrance fees,
special use or recreation permits, or landlfacilfty use agreements. We could not
accurately determine the extent to which residential treatment programs operate on 001
lands because, with the exception of the Bureau of Land Management (BLM), the DOl's
land management agencies do not maintain centralized electronic records of these
activities. In addition to BLM, these agencies are the Bureau of Indian Affairs (BIA),
National Park Service (NPS), Bureau of Reclamation (BOR), and U.S. Fish and Wildlife
Service (FWS). Records that do exist are maintained at local field offices or national
parks, where residential treatment programs would conduct activities.

       Because of the lack of consolidated information, we contacted officials of the land
management agencies to ascertain the extent to which residential treatment programs
operate on DOl lands.

Permitting, Licensing, and Leasing Processes

        Permits are required for individuals or groups prior to entering and using DOl
lands for other than day use, when the area to be visited is not otherwise covered by a
standard entrance fee. The permits are designed and issued to control the duration of
activities allowed on DOl lands, protect our recreational and natural resources, the health
and safety of federal employees working on public lands, and the people who visit them.

        As part of its pennitting process, BLM relies on state business licensing processes
to screen permit applicants. BLM requires residential treatment programs, generally
included as part of a group called "Commercial Outfitters," to be licensed by a state
before issuing a permit. We found that BLM still has an existing permit with one
wilderness therapy program that experienced a participant death, identified in the GAO
report as Case 8, (GAO-08-l46T, pages 16,29, and 30).

       NPS, FWS, and BOR reported that they had no known land/facility use
agreements with residential treatment programs. BIA, however, reported that it has one
residential treatment program operating on bureaultriballand. Rites of Passage, a boot
camp, has a lease with the Yearington Paiute Tribe of Nevada. The program has had one
juvenile death, which occurred on February 4, 1992, according to reports in the Salt Lake
Tribune.

        During our work, we noted the potential exists for treatment programs to operate
on DOl lands without first notifying officials at local field offices, wildlife refuges, or
national parks. Further, although agency management have responded to the best of their
knowledge, it is possible that some residential treatment programs could be operating at
the local level without the express knowledge of agency headquarters personnel.

       Because none of the land management agencies capture pennit compliance
information, we could not accurately determine the extent to which residential treatment
programs comply with such terms and conditions. We did note that BLM routinely
maintains records of comments or complaints received, including the activities of a
treatment program with a BLM pennit. BLM records the comments and complaints in its
Recreation Management Information System, which is available to all BLM employees.
No complaints related to child abuse were listed for currently operating permits.




                                             2
                                                                                                ' . '_: _'-.'...::!..'::"\




DOl's Role in Investigating Abuse

        Although participants in residential treatment programs are visitors to and users of
DOl land, DOl has no role related to the curriculum or experiences provided to program
participants, other than to provide health and safety services and assistance to all visitors
under similar circwnstances. To this end, Dor law enforcement and safety officials work
to protect and serve the people who recreate on 450 million acres of DOl land and who
make over 492 million visits annually.

         DOl law enforcement officers indicated that every complaint or indication of
child abuse occurring on DOl land is iriunediately investigated. With the exception of
BOR, DOl land management agencies use in-house law enforcement officials to protect
the health and safety of federal employees, as well as all visitors to DOl lands. BOR
procures law enforcement services for its more heavily visited recreational sites. All _
activities on DOl lands, including those of any residential treatment program, must._
comply with federal, state, and local laws. This requirement is acknowledged and agreed
to by both the DOl agency and the pelIDittee when they sign special use or recreational
permits or enter into land/facility use agreements. According to DOl law enforcement
officials, any violation of these laws is investigated, usually in concert with local law
enforcement, with reports filed and retained at both local and national levels and referrals
made to local or federal prosecutors, as appropriate.

        As a result of our evaluation, we are making two recommendations to the
Secretary of the Interior: 1) Interior's agencies must be more aggressive at identifying
residential treatment program use of DOl lands when awarding special use or recreation
permits; and 2) local field offices should notify, in writing, the appropriate state or local
oversight bodies of the existence of programs on DOl lands and any reported incidents of
child abuse or neglect on DOl lands associated with a residential treatment program.

       I hope our response provides you the background infolIDation your Committee
needs to address the areas of concern identified in your letter. If you have any questions,
please do not hesitate to call me directly, or your staff may contact Katie Balestra, OIG
Congressional Liaison, at (202) 208-5745.

                                                ~mcerely,


                                            ~      'fjfu }
                                            Gri(. -
                                              Earl E. Devane


cc: The Honorable Howard "Buck" McKeon
     Senior Republican, Committee on Education and Labor
    The Honorable Don Young
     Ranking Member, Committee on Natural Resources




                                              3
                                                                                              •. _J..:.. .•




                  United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240

                                                                         JAN 1 8     am


Memorandum

To:         Secretary

From:       EarlE. Devaney
            Inspector General
                                 ( ' , ..   (j
                                L -" \.,.~, .
                                                 f \. ".'':';"')'l0Lvt\_L~_~"
                                                              ~              ,..~'
                                                                                     ...."

Subject: Congressional Request from the Honorable George Miller         C.~
         Chairman, Committee on Education and Labor and the Honorable Nick 1.
         Rahall II Chairman, Committee on Natural Resources House of
         Representatives, concerning the safety of children attending residential
         treatment programs that operate on Department of Interior's lands

        On October 11,2007 we were asked to evaluate (1) the extent to which residential
tre~tment programs operate on federal land overseen by the U.S. Department of the
Interior (DOl); (2) the permitting, licensing, and leasing processes governing land use
and the extent to which these programs have complied with these processes; and (3) the
role DOl has played in investigating and preventing child abuse and neglect on federal
land.

        To identify both the scope of the problem and the safeguards needed to help
protect children in residential treatment programs and to ensure the appropriate use of
(DOl) lands, my staff performed the evaluation as expeditiously as possible. This
evaluation was primarily conducted with the Bureau of Land Management but also
included the National Park Service, Bureau of Reclamation, Bureau ofIndian Affairs,
and Fish & Wildlife Service. Residential treatment programs generally include
therapeutic wilderness programs, behavior modification treatment facilities, and boot
camps that use DOl's lands to accomplish their mission.

        The result of this evaluation is included in our written response to the
Congressmen, a copy of which is attached to this memorandum. Due to the serious
issues involving residential treatment programs and the responses we received from the
five Bureaus, we are making two recommendations, as follows:

      ~   Prior to awarding Special Use or Recreation Permits to residential treatment
          programs, DOl's bureaus must validate whether the program is licensed in the
          state(s) in which it operate(s)and have the program declare the full scope of the
          program's activities while using DOl's lands.
     ~   Require the local field offices, park units or wildlife refuges to notify the
         appropriate oversight bodies, such as a local or state government office(s), in
         writing about the existence of residential treatment programs operating on
         Interior's lands along with timely notification regarding any incidents of child
         abuse or neglect on DOl lands associated with residential treatment programs they
         oversight.

        We believe that these recommendations will help ensure the appropriate use of
Interior's lands and protect the lives of children attending residential treatment programs
while on DOl lands. If you should have ·any questions, please do not hesitate to contact
me at (202) 208-5745.

Attachment




                                             2
cc:   OIG Subject/Reading
      IG Chron
      AlGI Chron
      AlGAChron
      Balestra-CL
      Mike Colombo-WRO
      Ed Woo, Desk Officer
      Arlene Kuser, Investigations
      Congressional File
      CTS 2008-C-00006
